                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                          Audit of Department of State

                                       Drug-Free Workplace Program Plan


                                          Report Number AUD/HCI-12-30, February 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

«< Tear out


                   Spotlight: Audit of Department of
                   State Drug-Free Workplace Program
                   Plan
                   Office of Inspector General
                   AUD/HCI- 12-30




Why OIG Conducted This Audit                     Objectives
Because much of the work of the                  The objectives of this audit were to
Department of State involves highly              determine to what extent the drug
sensitive information that must not be           testing program for the Department
compromised, it is prudent to verify             meets Federal statutes, regulations and
that the Department has a practicable            guidance and to determine whether the
drug-free workplace program that is              Department is drug testing in
consistent with the intent of Executive          accordance with its program
Order 12564.                                     requirements.
What OIG Determined
OIG found that the Department's Drug-Free Workplace Plan does not include testing
at overseas posts, even though 40 percent of the Department's employees in sensitive
positions that are subject to drug testing are located overseas. OIG also found that the
Department is not conducting testing in accordance with its Plan. Specifically, the
sampling methodology used by the Department to select employees for drug testing is
not truly random . Moreover, the number of employees in sensitive positions subject
to testing is only I percent, or approximately 190 employees, while the Plan calls for
10 percent, or approximately 1,503 employees. Additionally, there are no formal
procedures to ensure that all personnel selected for drug testing are in fact tested and
that any employee who seeks a deferral of testing has a legitimate reason for seeking
a deferral. OIG concluded that the deficiencies resulted from limited program
emphasis and oversight.
OIG Recommended
OIG recommended four actions addressed to the Bureau of Human Resources, in
consultation with the Office of Medical Services, and the Office of the Legal Adviser
as appropriate: develop and implement overseas drug testing consistent with existing
drug testing logistical capabilities, develop a methodology for random drug testing,
develop procedures for all aspects of drug testing and submit the new methodology to
the Department of Health and Human Services for recertification, and ensure the
Department is placing appropriate management emphasis and resources toward
achieving the objective of a drug-free workplace.



«< Tear out
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                 UNCLASSIFIED





Acronyms


DOI        Department of the Interior
DOT        Department of Transportation
EO         Executive Order
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
HHS        Department of Health and Human Services
HR         Bureau of Human Resources
MED        Office of Medical Services
OIG        Office of Inspector General
OPM        Office of Personnel Management
1987 Act   Supplemental Appropriations Act of 1987




                                 UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents 

Section                                                                                                                                  Page


Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................2 


Objectives……. ...............................................................................................................................3 


Audit Results ..................................................................................................................................4 


           Finding A. The Department’s Drug Testing Plan Meets Federal Requirements, but 

           Overseas Testing Is Not Being Performed...........................................................................4 

           Finding B. The Department Is Not Conducting Drug Testing in Accordance With its 

           Drug-Free Workplace Program Plan ...................................................................................6 


List of Recommendations ..............................................................................................................13 


Appendix 

      A. Scope and Methodology................................................................................................14 


Major Contributors to This Report ................................................................................................16 





                                                          UNCLASSIFIED

                                             UNCLASSIFIED



                                         Executive Summary
        In the mid-1980s, the Federal Government became concerned about the risks of illegal
drug use by Federal employees. Those risks included the possibility of coercion of employees
entrusted with information affecting national security, loss of productivity, and impairment of the
health and well-being of the Federal workforce. President Reagan issued an executive order1 in
1986 requiring that all Federal employees refrain from using illegal drugs both on and off duty
and required that the head of each agency develop a plan that includes provisions for drug testing
employees on a controlled and carefully monitored basis. The extent of employee drug testing
and the criteria for such testing were left to the discretion of the head of each agency, while
additional legislation and guidance followed the Executive order to provide parameters for
Federal drug testing. The Office of Inspector General (OIG), Office of Audits, conducted this
audit to determine to what extent the drug testing program for the Department of State
(Department) meets Federal statutes, regulations, and guidance and to determine whether the
Department is drug testing in accordance with its program requirements.

        As stated in the Foreign Affairs Handbook,2 the Department’s Drug-Free Workplace
Program Plan (Plan) specifies how the Department ensures a drug-free workplace. The
Department identified employees holding security clearances of secret or above as employees in
sensitive positions. These employees are subject to random testing because illegal drug use by
those employees creates the possibility of coercion, which poses a risk to U.S. national security.
OIG found that the Plan met Federal statutory and regulatory requirements for drug testing.
However, the Plan does not include testing at overseas posts, even though 40 percent of the
Department’s employees in sensitive positions that are subject to drug testing are located
overseas. According to the Plan, overseas testing is not being performed primarily because of
logistical considerations, although OIG has determined that drug testing is being performed by
other Federal agencies that have employees located overseas.

        OIG also found that the Department is not conducting testing in accordance with its Plan
and is following self-prescribed testing procedures. Specifically, the sampling methodology
used by the Department to select employees for drug testing is not truly random. Moreover, the
number of employees in sensitive positions subject to testing is only 1 percent, or approximately
190 employees, while the Plan calls for 10 percent, or approximately 1,503 employees.
Additionally, there are no formal procedures to ensure that all personnel selected for drug testing
are in fact tested and that any employee who seeks a deferral of testing has a legitimate reason
for seeking a deferral. OIG concluded that the deficiencies identified with drug testing sampling,
procedures, and oversight stemmed from limited program emphasis by the Program Coordinator
and the Program Manager. As a result, the Department cannot ensure that it is achieving its goal
of having a drug-free workplace.




1
    Executive Order 12564, Sept. 15, 1986. 

2
    3 FAH-1 H-2111, “Personnel Operations–Drug-Free Workplace Program Plan.”


                                                      1

                                             UNCLASSIFIED
                                        UNCLASSIFIED


        OIG recommended four actions that the Department could take to strengthen its drug
testing program. The recommendations, addressed to the Bureau of Human Resources (HR), in
consultation with the Office of Medical Services (MED), and the Office of the Legal Adviser, as
appropriate, pertained to the following: developing and implementing overseas drug testing
consistent with existing drug testing logistical capabilities; developing a methodology for
random drug testing; developing procedures for all aspects of drug testing and submitting the
new methodology to the Department of Health and Human Services (HHS) for recertification;
and ensuring the Department is placing appropriate management emphasis and resources toward
achieving the objective of a drug-free workplace.

        OIG discussed the findings and recommendations in this report with officials from HR
and MED in December 2011, and in January 2012, provided both HR and MED with copies of
the draft report. However, neither HR nor MED provided OIG with comments on the draft
report. Therefore, all four of the report’s recommendations are considered unresolved.

                                          Background
        President Ronald Reagan issued Executive Order 12564 (EO) on September 15, 1986,
establishing the goal of a drug-free Federal workplace. The primary concern prompting the EO
was that illegal drug use was having serious adverse effects on a significant portion of the
national work force and billions of dollars were wasted each year because of lost productivity.
The intent of the EO is to offer a helping hand to those involved in illegal drug use while sending
a clear message that illegal drug use is incompatible with Federal service. The EO describes
how illegal drug use affects the Federal Government as well as Federal employees and the
public. The risks described in the EO include the possibility that illegal drug use by employees
with access to sensitive information creates the potential for coercion, influence, and
irresponsible actions that pose serious risk to national security, public safety, and effective
enforcement of the law. Additionally, the EO describes how illegal drug use can result in less
productivity; greater absenteeism; and safety risks to the employee, other Federal workers, and
the general public.

         The EO requires that all Federal employees refrain from using illegal drugs both on duty
and off duty and requires that the head of each agency develop a plan that includes provisions for
drug testing employees on a controlled and carefully monitored basis to identify illegal drug
users. The EO requires that each plan include five elements: (1) a statement of policy setting
forth the agency’s expectations regarding drug use and the action to be anticipated in response to
identified drug use; (2) employee assistance programs with high-level direction, emphasizing
education, counseling, referral to rehabilitation, and coordination with available community
resources; (3) supervisory training to assist in identifying and addressing illegal drug use by
agency employees; (4) provisions for self-referrals, as well as supervisory referrals, to treatment,
with maximum respect for individual confidentiality consistent with safety and security issues;
and (5) provisions for identifying illegal drug users, including testing on a controlled and
carefully monitored basis. The extent of employee drug testing and the criteria for such testing
are at the discretion of the head of each agency.


                                                 2

                                        UNCLASSIFIED
                                             UNCLASSIFIED


        In 1987, Congress passed Section 503 of the Supplemental Appropriations Act of 1987
(1987 Act).3 The 1987 Act prohibited the use of funds for drug testing until the Secretary of
HHS certified that each agency’s plan was in accordance with the EO, HHS testing guidelines,
and applicable provisions of the law. The 1987 Act also required that HHS specify the drugs for
which individuals are tested. Certification and oversight of Federal plans were delegated to the
Interagency Coordinating Group Executive Committee (Interagency Committee).4 The
Interagency Committee developed a Model Plan for a Comprehensive Drug-Free Workplace
Program that incorporates the requirements of the EO, the 1987 Act, and additional drug testing
guidelines and distributed the Model Plan to Federal agencies to serve as a prototype for each
agency’s drug-free workplace plan. In addition to certifying an agency’s initial plan, the
Interagency Committee also requires that agencies making substantive changes to their
respective plans receive approval from the Interagency Committee for those changes.

        Several agencies had a role in helping executive agencies design their drug testing
programs. The Office of Personnel Management (OPM) was required by the EO to issue
Government-wide guidance for agencies to use in preparing their respective plans. HHS was
required by the 1987 Act to develop scientific and technical guidance to be used in carrying out
testing operations. Finally, the Department of Justice was responsible for providing any legal
advice to agencies. Both OPM and HHS issued guidance to Federal agencies for testing pursuant
to the EO and the 1987 Act. In addition, Department of Transportation (DOT) regulations
implementing the Omnibus Transportation Employee Testing Act of 1991 require random testing
for drugs and alcohol of Federal employees who operate vehicles that require a commercial
driver’s license.5

        The Department has had a Drug-Free Workplace Program Plan in place since 1988.
Responsibility for management of the Drug-Free Workplace Program (Program) falls within two
components under the Under Secretary for Management. Program management is split between
the Drug Program Coordinator (Program Coordinator), who is a Deputy Assistant Secretary for
HR, and a Drug Program Manager (Program Manager), who is a nurse in MED. The Program
Coordinator is responsible for the implementation, direction, administration, and management of
the Program. The Program Manager is responsible for the day-to-day management,
coordination, and implementation of the Program. MED employees do not perform the drug
testing. Instead, the Department has an interagency agreement with the Department of the
Interior (DOI) for sample collection and testing in the Washington, DC, area and domestic field
offices. DOI uses a private contractor to perform those functions.

                                                Objectives
       The objectives of this audit were to determine to what extent the drug testing program for
the Department meets Federal statutes, regulations and guidance and to determine whether the
Department is drug testing in accordance with its program requirements.
3
  Pub. L. No. 100-71, 101 Stat. 391.

4
  The Interagency Committee consists of representatives from HHS, the Office of Personnel Management, and the 

Department of Justice.

5
  Pub. L. No. 102-143, 105 Stat. 959 and 49 CFR Part 40. 


                                                       3

                                             UNCLASSIFIED
                                              UNCLASSIFIED



                                               Audit Results

Finding A. The Department’s Drug Testing Plan Meets Federal
Requirements, but Overseas Testing Is Not Being Performed
        The Plan sets forth how the Department ensures a drug-free workplace. OIG found that
the Department’s Plan meets Federal statutory and regulatory requirements outlined in the EO
and the 1987 Act, even though the Department chose not to conduct testing at overseas posts,
where 40 percent of its employees subject to drug testing reside. The Department’s Plan
indicates that technical and logistical issues such as medical resources at post, chain of custody
for samples, and cost effectiveness needed to be resolved before overseas testing could begin.

Drug-Testing Plan in Compliance With Federal Requirements and Exempts Overseas
Testing

       The EO and the 1987 Act provide high-level requirements for agency Drug-Free
Workplace Program Plans but leave much of the implementation of those plans to the discretion
and direction of each agency head.6 The EO requires that the Department develop a plan for
achieving the objective of a drug-free workplace, with due consideration of the rights of the
Government, the employee, and the general public. According to the EO, each agency plan must
include “a statement of policy setting forth the agency’s expectations regarding drug use” and
“[p]rovisions for identifying illegal drug users, including testing on a controlled and carefully
monitored basis.” Further, the drug testing must comply with procedures developed by HHS.

        The EO mandates voluntary testing and the testing of employees in sensitive positions.
Further, the EO allows, but does not require, testing for reasonable suspicion of drug use, as a
result of an accident or an unsafe practice, as part of a followup to counseling and rehabilitation,
and for individuals who apply for Federal employment.

       The EO defines “employees in sensitive positions” and the criteria for such testing.
Employees in sensitive positions are employees (1) in positions that have been designated as
such by the agency head; (2) in positions in which access to classified information has been
granted; (3) who are serving under Presidential appointments; (4) who are serving as law
enforcement officers; and (5) who are in “[o]ther positions identified by the agency head as
involving law enforcement, national security, the protection of life and property, public health
and safety, or other functions requiring a high degree of trust.”

        The extent of employee drug testing and the criteria for such testing are at the discretion
of the head of each agency after taking into account (1) the particular agency mission and the
employees’ duties, (2) the efficient use of agency resources, and (3) the danger to public health
and safety and national security that could result from the failure of an employee to adequately

6
 The scope of this report did not include a review of the EO provisions for actions to be taken when employees are
found to have used illegal drugs or a review of treatment and assistance options.

                                                         4

                                              UNCLASSIFIED
                                             UNCLASSIFIED


discharge his or her duties. OPM guidance implementing the terms of the EO strongly
encouraged the use of random testing to ensure that the selection process did not result in
arbitrary, capricious, or discriminatory selections and suggested the application of neutral
selection criteria such as social security numbers and dates of birth.7 Additionally, OPM
guidance allowed agencies to choose to exempt a portion of the pool of employees in sensitive
positions from drug testing based on hardships attributable to remote locations of duty stations,
unavailability of testing personnel, or lack of an appropriate test site.8 OPM guidance notes that
agencies should use reasonable means to overcome those hardships. The 1987 Act required that
the Secretary of HHS certify each agency’s plan before drug testing could begin.

        OIG compared the drug testing requirements in the Department’s Plan9 with the
requirements in the EO and the 1987 Act and found that the Plan was in compliance with the EO
and was certified by HHS in 1988. The Plan includes a statement of policy that describes the
Department’s compelling reason to eliminate illegal drug use from its workplace, provides a
process for both voluntary testing and random testing of employees in sensitive positions, and
follows drug-testing procedures required by HHS. The Department identified employees holding
security clearances of secret or above as employees in sensitive positions and therefore subject to
random testing because illegal drug use by those employees creates the possibility of coercion,
which poses a risk to U.S. national security.

        The Plan’s process for random testing limits the testing of personnel to those with
security clearances who are present within the United States because of the logistics involved in
testing at remote posts, including potential problems with the chain of custody for test samples,
medical and laboratory resources at post, the feasibility of standardizing tests for all overseas
posts, availability of employee assistance programs, and program costs. The Plan notes that the
Department must resolve those practical and logistics issues before overseas testing can begin.

       Although the exemption of overseas testing is consistent with OPM guidance, OIG found
no evidence that the Department examined the feasibility of employing drug testing overseas
since 1993, despite the fact that other Federal agencies are conducting overseas drug testing and
40 percent of all of the Department’s sensitive positions are located overseas. OIG
contacted officials at DOI, the Department of Defense, and the Department of Agriculture and
learned that those agencies are conducting overseas drug testing. Further, an official from
Pembrooke Occupational Health, Inc., a private contractor that performs drug testing for Federal
agencies through DOI, stated that the company is currently testing in 30 countries, mainly in
Europe, Asia, and Afghanistan.10




7
  Establishing a Drug-Free Workplace, Federal Personnel Manual Letter 792-19,3(a)(3), 54 Fed. Reg. 47324 (Nov. 

13, 1989).

8
  Ibid. at 3(g). 

9
  3 FAH-1 H-2100, “Personnel Operations–Drug Free Work-Place.” 

10
   According to a Pembrooke official, the cost of collecting samples overseas and returning the samples to the 

United States for testing is generally a little more than three times that of testing in the United States. 


                                                       5

                                             UNCLASSIFIED
                                                 UNCLASSIFIED


           Recommendation 1. OIG recommends that the Bureau of Human Resources develop and
           implement drug testing procedures for Department employees serving in sensitive
           positions overseas.

           Management Response and OIG Reply: Neither the Bureau of Human Resources nor
           the Office of Medical Services responded to the draft report. Therefore, the
           recommendation is unresolved.

Finding B. The Department Is Not Conducting Drug Testing in Accordance
With its Drug-Free Workplace Program Plan
        OIG found that the Department is not conducting drug testing in accordance with its Plan
because it is not using a random sampling methodology and the number of employees subject to
testing is far below the Plan’s threshold. In addition, there are no formal procedures to
implement the Plan’s requirement to ensure that all personnel selected for drug testing are in fact
tested and that any employee who seeks a deferral of testing has a legitimate reason for a
deferral. OIG concluded that the deficiencies identified pertaining to testing procedures resulted
from limited program oversight and emphasis. As a result, the Department cannot ensure that it
is achieving its goal of a drug-free workplace. Moreover, national security can be adversely
impacted because illegal drug use by Federal employees with access to sensitive information
increases the risk of coercion, influence, and irresponsible actions. This is particularly relevant
to the Department because 74 percent11 of Department employees are in sensitive positions that
are subject to drug testing.

The Department Is Conducting Testing Primarily Based on Sampling

       The Plan sets forth how the Department will drug test in order to ensure it has a drug-free
workplace and requires six categories of testing: random, reasonable suspicion, accident or
unsafe practice, voluntary, followup, and applicant testing for individuals with either a statutory
or regulatory requirement for pre-employment drug testing (for example, drivers and pilots).
The Plan’s criteria for each testing category are shown in Figure 1.




11
     The 74 percent is the percentage of employees holding security clearances of secret or above for FYs 2008-2010.

                                                           6

                                                 UNCLASSIFIED
                                        UNCLASSIFIED


      Figure 1. Department of State Plan Drug Testing Criteria
    Nature of                              Testing Criteria
     Testing
   Random         Annual random testing for 10 percent of Department employees cleared for secret or
   sample         above and who are within the United States.
                  Testing based upon any of the following:
                  (1) Direct observation and /or physical symptoms;
                  (2) Pattern of abnormal conduct or erratic behavior;
                  (3) Arrest or conviction for drug offense or employee a focus of a criminal
   Reasonable         investigation for illegal drug possession, use, or trafficking;
   suspicion      (4) Reliable and credible sources or independent corroboration of illegal drug use;
                      and
                  (5) Evidence that employee tampered with prior drug test.
                      Reasonable suspicion does not require certainty, but mere “hunches” are
                      insufficient.
                  Testing when employee actions are reasonably suspected of having caused or
   Accident or    contributed to an accident that either:
   unsafe         (1) Results in death or personal injury requiring immediate hospitalization or
   practice       (2) Results in damage to the U.S. Government and/or private property estimated to
                      be in excess of $10,000.
   Voluntary      Any employee may volunteer for testing.
                  All employees referred through administrative channels who undergo a counseling or
   Followup       rehabilitation program for illegal drug use though the Department’s Employee
                  Assistance Program.
                  Pre-employment testing for positions with statutory or regulatory drug testing
   Applicant      requirements (e.g., drivers and pilots) or positions designated by the Secretary as
                  particularly sensitive.
         Source: 3 FAH-1 H-2100, “Employment–Drug Free Work-Place.”

        As shown in Table 1, summary testing reports from 2008–2010 indicated that the
Department conducted random sample testing, 10 followup tests, and one applicant test. The
Program Manager’s assistant stated that the Department was conducting only random testing and
that the reports showing followup and applicant testing reflect coding errors, as MED is
responsible for entering all testing data. The Program Manager’s assistant enters the testing type
codes for all Department personnel, and she stated that she also was unaware of any testing other
than random testing. OIG could not independently verify the testing category data but found no
evidence of or procedures to reconcile followup testing with positive test results. Further, OIG
confirmed that motor pool drivers were not subject to applicant testing. Based on this
information, OIG accepts the validity of the explanation from the Program Manager’s assistant
that data showing followup and applicant testing are erroneous coding errors.




                                                 7

                                        UNCLASSIFIED
                                                UNCLASSIFIED


           Table 1. Department of State Drug Testing 2008–2010
                      Testing Category                     2010           2009             2008
               Random sample*
               (Not truly random as
               conducted)                                       209           182                 161
               Followup                                            0             8                  2
               Voluntary                                           0             0                  0
               Reasonable suspicion                                0             0                  0
               Accident or unsafe practice                         0             0                  0
               Applicant                                           0             0                  1
               Total Tested                                     209           190                 164
           *Although categorized as a random sample result, OIG found that the process used to select employees for 

           testing was not truly random because the sample was subdivided, which affects the probability of being 

           selected. 

           Source: Based on reports generated from the DOI contractor database by the Program Manager’s assistant.


        The Plan offers employees an opportunity to request voluntary inclusion in the random
testing pool, but OIG found no records of voluntary testing or any indication that employees
were aware they could voluntarily join the testing pool. As stated in Finding A, voluntary testing
was a requirement of the EO. The Plan requires that the Department’s Director of Safety
Programs investigate and report findings to the Program Coordinator for certain accidents or
unsafe practices. OIG was unable to find any reports made to the Program Coordinator from the
Director of Safety Programs reporting such incidents or attesting to the fact that such incidents
had not occurred within the year. The Plan outlines procedures for reasonable suspicion testing,
but the Program Coordinator’s staff stated that such testing rarely occurred.  

Drug Testing Sampling Was Not Random and Was Less Than the 10 Percent Goal

        The Plan calls for random testing of approximately 10 percent of all personnel in the
Washington area and in the Department’s domestic field offices holding security clearances of
secret or above. Selection for testing is based upon a statistical sample, meaning that employees
are selected using a random method and that each employee within the United States who holds a
security clearance of secret or above has a chance of being selected for drug testing. 12

        OIG found that the process used to select employees for testing was not truly random and
that there were no formal procedures in place for the sampling process. Based on interviews
with the Program Coordinator and his staff and the Program Manager and her assistant, OIG
determined that the Program Manager initiates a sample selection by deciding the total number
of employees to test in the United States during two to three testing cycles throughout each year.
The Program Manager sends her sample request to the Program Coordinator’s staff, who then
12
     Using Statistical Sampling (GAO/PEMD-10.1.6, May 1992).

                                                          8

                                                UNCLASSIFIED
                                               UNCLASSIFIED


use organization codes and a Microsoft Visual Basic spreadsheet to select employees for testing.
The Program Manager told us that the timing of testing, the number of testing cycles, and the
size of each sample were not based on policy or procedures but primarily on her work load. The
Program Manager subdivides the total United States sample size for a particular testing cycle and
requests that the Program Coordinator’s staff draw two-thirds of the sample names from the
Washington, DC, area; five to 10 people from the motor pool; and the remainder from field
offices. For example, the Program Manager may decide to test 305 people at a particular time of
year, with two-thirds, or 200 employees, selected from the Washington, DC, area; 5 employees
from the motor pool; and the remaining 100 employees from the domestic field offices.

        OIG found that the Program Coordinator’s staff is selecting employees for drug testing
based on organization codes that were in effect in FY 2000. OIG compared the organization
codes used by the Program Coordinator’s staff for drug testing sample selection with the
organization codes currently in effect and found that 52 domestic organization codes for field
offices were not included by the Program Coordinator’s staff, six organization codes used by the
Program Coordinator’s staff were not in existence, and five codes used were listed more than
once. As a result, the Program Coordinator’s staff was not including all employees located in the
United States with security clearances within the testing pool. Further, the organization codes
used to draw the sample for drug testing did not include Foreign Service personnel who are in
the United States for periods of time between tours.13 Foreign Service personnel spend periods
of time in the United States for language and other training. While temporarily in the United
States, those Foreign Service personnel are not assigned to a U. S. organization code but retain a
foreign posting code. As stated in Finding A, the hardship exemption for overseas drug testing
applies because of the logistical concerns involved in testing in remote areas. When Foreign
Service personnel with security clearances are in the United States, such logistics concerns are
eliminated, and according to the language of the Plan, those positions should be included in the
U. S. drug-testing pool.

        By using outdated organization codes and excluding Foreign Service employees who are
temporarily in the United States, the Department’s sampling methodology is not random, as all
employees in the United States do not have a chance of being selected for testing. Thus any
positive drug tests found as a result of this non-random testing cannot be projected to the entire
domestic testing pool. Further, in breaking apart the testing pool to select more employees from
the Washington area than from the field offices, the Department alters an employee’s chance of
selection.

        Finally, Department records for the period 2008–2010 show that the Department is
testing far less than the 10 percent threshold specified in the Plan. As shown in Table 2, the
Department tested only 1 percent of its employees each year for the past 3 years.




13
  Foreign Service personnel whose duty stations are in the United States would be subject to testing based on their
U.S. organization code.

                                                         9

                                               UNCLASSIFIED
                                                 UNCLASSIFIED


Table 2. Plan Testing Rate Versus Actual Testing Rate
                                         10% Plan     Number
              Fiscal      U.S. Testing    Testing     Actually                   % Actually
              Year            Pool          Rate       Tested                     Tested
              2008           13,238        1,324        164                          1
              2009           15,026        1,503        190                          1
              2010           17,061        1,706        209                          1
              Source: HR testing pool and MED testing data.

No Process Exists To Ensure All Personnel Selected Are Drug Tested and Deferrals Are
Warranted

         In addition to the deficiencies in drug-test sampling noted, OIG found that there are no
formal procedures to ensure that the few people who are selected for testing actually take the test
or receive the proper deferral and followup testing. According to the Plan, employees selected
for drug testing are notified by their designated bureau Drug-Free Workplace Coordinator
(Bureau Coordinator) the same day the test is scheduled and preferably within 2 hours of the test.
If the Bureau Coordinator is unable to locate the employee, the employee’s first-line or second-
line supervisor is asked to assist in locating the employee. When an employee selected for
random testing is on leave, travel status, training away from the workplace, or other compelling
reasons, the Plan allows the employee to request a deferral of testing if his or her first- and
second-line supervisors submit written justification to the Program Manager. The Program
Manager has sole discretion for granting deferrals. If the deferral is granted, the individual is
subject to unannounced testing within 60 days.

        OIG found that when the Program Manager received the names from the Program
Coordinator’s staff for sample selection, the Program Manager’s assistant checked each name
against the Global Address List14 to determine the employee’s physical location rather than
sending the list to the Bureau Coordinators for verification. For those individuals determined to
be outside the United States, the assistant merely crossed the names off the list, and no further
action was taken to ensure deferral was appropriate and followup testing was scheduled.

       OIG also found that for testing in the Washington area, the Program Manager’s assistant
was on site and was able to determine which employees arrived for testing and which did not.
The Program Manager’s assistant sent a list of those employees who missed testing to the
Program Coordinator’s staff. OIG did not find records showing that those employees who
missed testing provided written justification from first- and second-line supervisors to the
Program Manager and did not find records showing that those employees were scheduled for
unannounced followup testing within 60 days, as required by the Plan.

        Additionally, there was no verification of testing for field office personnel. When
individuals at domestic field offices are scheduled for random drug testing, they are provided
instructions and told to report to a specific contract collection facility. The collection facility
14
     The Global Address List is the Department’s Microsoft Outlook email list.

                                                          10

                                                 UNCLASSIFIED
                                        UNCLASSIFIED

collects the sample and sends it to a contract laboratory for analysis. Test results are input into
the contractor’s database, and the Program Manager has access to that information. The Program
Manager and her assistant explained that they did not have time to verify that the individuals
scheduled for testing were, in fact, tested. As a result, OIG could not verify that everyone who
was expected to be tested actually was tested and that waivers for testing were appropriate.

Problems in Plan Compliance and Procedures Result From Limited Oversight

        The deficiencies OIG identified with drug testing procedures stem from limited program
oversight and emphasis. The current Program Coordinator (b) (6)
                                          did not receive guidance
                                                             (b) (6)
                                                                       from his predecessors
concerning management of the Department’s Plan and that (b) (6)primary involvement occurred
when someone tested positive and faced personnel actions.            also reviewed the annual report
                                                                                           (b) (6)

on drug testing results that is sent to HHS. The Program Coordinator further stated that relies
predominantly on the Program Manager for all drug-testing aspects of the Plan and the accuracy
of the HHS annual report.

       The Program Manager’s responsibilities were assigned as an ancillary duty (b) (6)


                                                 spend approximately 10 percent of their time on
the drug program.  (b) (6)
                                      (b) (6)
    did not receive any guidance from         predecessor but did receive training from HHS on the
drug program.

       When asked why the Department was not testing in accordance with the Plan, the
Program Manager stated that staff did not have time to coordinate more than two to three testing
cycles per year because drug testing was an ancillary duty rather than the primary duty of
managing the MED clinic. Further, there was limited staff time to track who was tested and who
was not. (b)(5)(b)(6)
                                                                                (b) (6)
                                       The Program Manager further stated that     did not receive
guidance or direction from the Program Coordinator and had had no interaction with the Program
                                  (b) (6)
Coordinator other than to provide         the HHS annual report for his signature.

         The net result of ineffective drug testing procedures is that the Department cannot ensure
that it is achieving its goal of a drug-free workplace. National security can be adversely
impacted because illegal drug use by Federal employees with access to sensitive information
increases the risk of coercion, influence, and irresponsible actions. This is particularly relevant
to the Department because 74 percent of Department employees hold security clearances of
secret or above or have sensitive positions subject to drug testing.

   Recommendation 2. OIG recommends that the Bureau of Human Resources, in coordination
   with the Office of Medical Services and the Office of the Legal Adviser, develop a random
   sampling methodology, obtain approval from the Interagency Coordinating Group Executive

                                                 11

                                        UNCLASSIFIED
                                   UNCLASSIFIED


Committee to employ the methodology, and implement random drug testing as prescribed by
the Department Drug-Free Workplace Program Plan.

Management Response and OIG Reply: Neither the Bureau of Human Resources nor the
Office of Medical Services responded to the draft report. Therefore, the recommendation is
unresolved.

Recommendation 3. OIG recommends that the Bureau of Human Resources, in coordination
with the Office of Medical Services and the Office of the Legal Adviser, develop procedures
and controls to ensure that all aspects of drug testing are conducted in accordance with the
Department Drug-Free Workplace Program Plan, including establishing the frequency and
timing of random sample testing, reconciling random sample selection with drug tests taken
and ensuring deferrals are appropriate and followup testing occurs, establishing controls to
ensure employees with positive drug test results receive followup testing, notifying
employees of the option to be voluntarily drug tested, and developing procedures and
controls over program reporting and recordkeeping.

Management Response and OIG Reply: Neither the Bureau of Human Resources nor the
Office of Medical Services responded to the draft report. Therefore, the recommendation is
unresolved.

Recommendation 4. OIG recommends that the Bureau of Human Resources, in
coordination with the Office of Medical Services, devote appropriate program oversight,
management emphasis, and resources to ensure that the Department is achieving a drug-free
workplace.

Management Response and OIG Reply: Neither the Bureau of Human Resources nor the
Office of Medical Services responded to the draft report. Therefore, the recommendation is
unresolved.




                                          12

                                   UNCLASSIFIED
                                      UNCLASSIFIED



                                List of Recommendations


Recommendation 1. OIG recommends that the Bureau of Human Resources develop and
implement drug testing procedures for Department employees serving in sensitive positions
overseas.

Recommendation 2. OIG recommends that the Bureau of Human Resources, in coordination
with the Office of Medical Services and the Office of the Legal Adviser, develop a random
sampling methodology, obtain approval from the Interagency Coordinating Group Executive
Committee to employ the methodology, and implement random drug testing as prescribed by the
Department Drug-Free Workplace Program Plan.

Recommendation 3. OIG recommends that the Bureau of Human Resources, in coordination
with the Office of Medical Services and the Office of the Legal Adviser, develop procedures and
controls to ensure that all aspects of drug testing are conducted in accordance with the
Department Drug-Free Workplace Program Plan, including establishing the frequency and
timing of random sample testing, reconciling random sample selection with drug tests taken and
ensuring deferrals are appropriate and followup testing occurs, establishing controls to ensure
employees with positive drug test results receive followup testing, notifying employees of the
option to be voluntarily drug tested, and developing procedures and controls over program
reporting and recordkeeping.

Recommendation 4. OIG recommends that the Bureau of Human Resources, in coordination
with the Office of Medical Services, devote appropriate program oversight, management
emphasis, and resources to ensure that the Department is achieving a drug-free workplace.




                                              13

                                      UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix A
                                  Scope and Methodology

       The Office of Inspector General (OIG) conducted this audit to determine whether the
Department of State Drug-Free Workplace Plan meets Federal statutes, regulations, and guidance
for drug testing and whether the Department was drug testing in accordance with its program
requirements. OIG conducted fieldwork for this audit from July through October 2011 at the
Bureau of Human Resources (HR), the Office of Medical Services (MED), and the Department
of Health and Human Services (HHS).

        To obtain background for the audit, OIG researched and reviewed requirements contained
in Federal appropriations law, Executive orders, Government Accountability Office reports, the
Department’s Foreign Affairs Manual and Foreign Affairs Handbook, and HR and MED
guidance. OIG also obtained and analyzed Office of Personnel Management (OPM) and HHS
guidance related to Federal drug testing plans. In addition, OIG reviewed and analyzed internal
OIG and external audit and inspection reports to identify information relating to drug-testing
issues. OIG also contacted appropriate officials at the U.S. Agency for International
Development, the Department of Agriculture, the Department of the Interior, and the Department
of Defense regarding their drug testing plans and programs.

        OIG interviewed HR and MED officials to obtain information on the development and
implementation of the Plan. OIG obtained and analyzed various data, statistics, and lists related
to the Department’s drug testing efforts and results from FYs 2003–2011, focusing on FYs
2008–2010, as data for these years was the most recent and complete data available.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and conclusions
based on its audit objectives. OIG believes that the evidence obtained provides a reasonable
basis for its findings and conclusions based on the audit objectives.

Compliance With Laws and Regulations

        As noted, OIG was able to test whether the Department’s Plan had appropriate controls in
place to ensure compliance with statutes and regulations. OIG obtained and reviewed Executive
Order 12564, issued on September 15, 1986, and Section 503 of the Supplemental
Appropriations Act of 1987 (Pub. L. No. 100-71). OIG also obtained and reviewed the
Interagency Coordinating Group Executive Committee’s Model Plan that serves as a prototype to
Federal agencies to assist them in developing their own drug-free workplace plan. OIG
compared the Department’s Plan with information in Executive Order 12564, Public Law 100-
71, and the Model Plan. OIG did not identify any significant discrepancies; therefore, OIG
determined that the Department’s drug-free workplace plan was in compliance with laws and
regulations.



                                               14

                                       UNCLASSIFIED
                                      UNCLASSIFIED



Work Related to Internal Controls

        To test internal controls, OIG interviewed MED and HR personnel to understand and test
the processes they have in place to provide a level of assurance that employees selected for
testing were actually tested. OIG determined that Department personnel do not perform any type
of reconciliation between the employees randomly selected and the employees actually tested.
OIG also determined that while Department personnel have the capability to access the
contractor’s database and determine which employees in the field offices were actually tested,
the Department does not implement this function. As such, OIG identified deficiencies in the
internal controls related to the Department’s implementation of its drug-free workplace program.

Use of Computer-Processed Data

       To assess the reliability of the data, OIG compared the computer-processed data obtained
from Department personnel derived from a third-party contractor’s database with information
contained in the Department’s Annual Survey Report provided to HHS. In addition, OIG also
compared HR data on employees identified for testing with the same type of information
provided by MED. OIG identified discrepancies in the information obtained from the
contractor’s database, HR, and the Annual Survey Report and followed up with relevant
Department employees to obtain explanations as to why such discrepancies occurred.




                                              15

                                      UNCLASSIFIED
                                      UNCLASSIFIED




Major Contributors to This Report

Margaret Wolf, Division Director
Division of Human Capital and Infrastructure
Office of Audits

Basil Temchatin, Audit Manager
Division of Human Capital and Infrastructure
Office of Audits

Domingo Alvarez, Senior Auditor
Division of Human Capital and Infrastructure
Office of Audits

Brian Stratton, Auditor
Division of Human Capital and Infrastructure
Office of Audits




                                               16

                                      UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

